WAIVER

Supreme Court, U.S.
FILED

Supreme Court of the United State s

OFFICE OF THE CLERK

NOV 1 3 2020

No. 20-495
Charee Stanley
(Petitioner)

v.

ExpressJet Airlines, Inc.
(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I am a member of the Bar of the Supreme Court of the United. States.
I am not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.

t6

.
Signature aiteOt 41110-tfir
Date: November 13, 2020
(Type or print) Name

Firm

Ms. Sarah Pierce Wimberly
ff Ms.
Mr.

0 Mrs.

0 Miss.

Ford & Harrison LLP

Address 271 17th Street, N.W., Suite 1900
City & State Atlanta, Georgia
Phone

Zip 30363

404/888-3842

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
Cc:

Mr. J. Carl Cecere
Cecere, P.C.
6035 McCommas Blvd.
Dallas, TX 75206

Obtain status of case on the docket. By phone at 202-479.3
http://www.supremecourtus.gov . Have the Supreme Court

lus Laboris USA Global HR Lawyers

L _44

271 17th Street, NW I Suite 1900
Atlanta, Georgia 30363
Tel 404-888-3800 I Fax 404-888-3863

FordHarrison

Writer's Direct Contact:
SARAH PIERCE WIMBERLY
404-888-3842
swimberly@fordharrison.com

November 13, 2020

Clerk of Court
Supreme Court of the United States
1 First St NE
Washington, DC 20543
Re:

Charee Stanley, Petitioner v. ExpressJet Airlines, Inc., Respondent
Supreme Court of the United States
Case No. 20-495

Dear Clerk:
Please find enclosed the executed Waiver in the above-referenced case
indicating that Respondent ExpressJet Airlines does not intend to file a response to the
Petition for a Writ of Certiorari.
Sincerely,
Vtifv,?1,t)
SARAH PIERCE WIMBERLY
SPW/lb
cc:
Mr. J. Carl Cecere
Cecere, PC
6035 McCommas Blvd.
Dallas, TX 75206
WSACTIVELLP:11880797.1

RECEIVED
NOV 2 4 2020
SUPREME COU TERK
R U.S.

www.fordharrison.com I www.iuslaboris.com

